CONTROLS OVER THE FEDERAL AVIATION
  ADMINISTRATION’S CONVERSION OF
    FLIGHT SERVICE STATIONS TO
      CONTRACT OPERATIONS
        Federal Aviation Administration
         Report Number: AV-2007-048
          Date Issued: May 18, 2007
           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Interim Report on Controls Over the                  Date:    May 18, 2007
           Federal Aviation Administration’s Conversion of
           Flight Service Stations to Contract Operations
           Federal Aviation Administration
           Report Number AV-2007-048
  From:                                                              Reply to
           David A. Dobbs                                            Attn. of:   JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Aviation Administrator

           This report presents the interim results of our audit of the controls implemented by
           the Federal Aviation Administration (FAA) over its conversion of flight service
           stations to contract operations. The objectives of our audit were to assess whether
           FAA had implemented effective plans and controls to (1) transition flight service
           stations to contract operations, (2) achieve anticipated savings, and (3) ensure that
           the operational needs of users continue to be met.

           Flight service stations provide general aviation pilots with aeronautical
           information such as pre- and in-flight weather briefings, flight planning assistance,
           and aeronautical notices. In addition, while employees at flight service stations do
           not control air traffic, they can provide in-flight support to pilots who are lost or in
           need of assistance. Flight services are provided at no charge to users and are
           intended to help promote safe flight operations. However, most of the services
           provided are optional for pilots’ use.

           On February 1, 2005, FAA awarded a 5-year, fixed-price incentive contract (with
           5 additional option years) to Lockheed Martin to operate the Agency’s 58 flight
           service stations in the continental United States, Puerto Rico, and Hawaii. The
           contract, worth about $1.8 billion, represents one of the largest non-defense
           outsourcing of services in the Federal Government. FAA anticipates that by
           contracting out flight service facilities, it will save $2.2 billion over the 10-year
           life of the agreement. On October 4, 2005, Lockheed Martin took over operations
           at the 58 flight service stations.


                                                      i
Under terms of the contract, during the transition period, the Government is
responsible for costs associated with non-mandatory, Government Furnished
Property (e.g., certain legacy systems and equipment). In October 2007, that
responsibility shifts to Lockheed Martin.

FAA’s anticipated savings are based on the difference between the Agency’s
projected costs of operating the flight service stations versus the 10-year cost of
the Lockheed Martin contract. These savings are expected to be achieved through
a series of changes to reorganize flight service stations operations and modernize
facilities and equipment. The main changes include the following:

 • Consolidating the 58 flight service stations currently in operation into 3 new
   hub facilities and 16 refurbished stand-alone facilities;
 • Deploying a new flight services operating system—FS-21—at the 3 hub and
   16 continuing facilities. The new system will connect the facilities through a
   single, nationwide operating system that will allow flight service specialists to
   file flight plans, access aeronautical and weather information, and provide
   other information to pilots for any airport in the country; and
 • Reducing flight service specialist staffing levels from approximately
   1,900 specialists (at the time that Lockheed Martin assumed operation of the
   flight service stations) to about 1,000 specialists as a result of the technological
   and operational changes noted above.

   Figure. Picture of the Operating Floor at the New Hub Flight
               Service Station in Ashburn, Virginia




    Source: Lockheed Martin



                                          ii
Our review, conducted between May 2006 and March 2007, included site visits to
six existing flight service stations, three Lockheed Martin hub flight service
stations, two Lockheed Martin Division Offices, FAA Headquarters, and two FAA
Regional Offices. Exhibit A details our review scope and methodology. Exhibit
B lists the specific organizations we contacted and visited during the audit. We
are continuing our review to further assess FAA’s controls over ensuring that
anticipated savings are achieved and the operational needs of users continue to be
met. We will report on these issues again later this year.


RESULTS IN BRIEF
We found that FAA has implemented effective controls over the initial transition
of flight service stations to contract operations. These controls include contractual
performance measures that require the contractor to achieve acceptable levels of
operational performance and service as well as internal mechanisms that oversee
the operational and financial aspects of the program. We also found that the
Agency is using these controls to monitor contract flight service stations and, in
some cases, is penalizing the contractor for poor performance.

In addition, FAA completed an internal review of the flight services transition in
May 2006. The Air Traffic Organization’s Office of Finance conducted the
review and recommended, among other things, that FAA conduct an independent
assessment of the cost baseline used, update projected cost savings, and ensure
that the quality assurance branch has sufficient resources to adequately validate
contract performance levels. FAA is in the process of addressing those
recommendations.

It is uncertain, however, if the controls put in place by FAA will be sufficient to
ensure that anticipated savings are achieved during the next and most critical
phase of the transition. In February, the contractor began actions to complete, test,
and implement FS-21 and to consolidate the existing 58 sites into 3 hub and
16 refurbished locations—all within a 6-month timeframe. There are significant,
inherent risks associated with this phase of the transition, and any slips in that
schedule could affect the anticipated savings. For instance:

 • FAA and the contractor are facing an extremely aggressive consolidation
   schedule. According to the contractor’s transition plan, the consolidation
   involves opening the 3 hub facilities, transferring operations at 42 closing sites,
   and refurbishing the 16 continuing sites with new equipment. This is planned
   to occur during a 6-month period, which started in February 2007 and will end
   in July 2007.




                                         iii
• The consolidation depends upon the contractor completing and deploying
  FS-21, and Lockheed Martin has already experienced delays in
  implementing it. According to FAA officials, the current deployment
  schedule for FS-21 already includes a 10-month delay that Lockheed Martin
  experienced during development, and they believe an additional 6-week delay
  is possible. Further delays in implementing FS-21 could have a cascading
  effect on consolidation plans.

• FS-21 requires digital capabilities and, per the contract terms, must
  interface with FAA’s Telecommunications Infrastructure (FTI) Network.
  To meet this requirement, FAA is installing digital connections between
  Lockheed Martin hub facilities and certain closing and continuing flight
  service stations. While FAA has begun installing these connections, any
  delays or problems with installation could hamper testing and operation of FS-
  21, possibly delaying the transition.

• Schedule delays could expose the contractor, FAA, or both parties to
  additional costs, such as extending existing leases at some locations and
  maintaining legacy systems. While the ultimate responsibility for delays and
  related costs incurred will depend upon the party responsible for the delay, it is
  likely that FAA would bear some portion of the total costs, which would
  impact the overall anticipated savings. FAA is already facing possible
  reductions to savings as Lockheed Martin is requesting nearly $177 million in
  equitable adjustments to the contract. Most of that adjustment ($147 million)
  is based on the contractor’s claim that it was not provided with the correct
  labor rates when it submitted its bid.

• A critical tool that could assist FAA in monitoring this transition—a
  variance report comparing actual first year costs to estimates—was only
  recently completed. This tool will allow FAA to compare its baseline
  estimate of savings to actual costs, determine the reasons for shortfalls, and
  allow for adjustment to ensure that savings are realized. The variance report is
  critical because it will provide FAA management with its first opportunity to
  evaluate projections of its outsourcing efforts in areas such as operational
  costs, technical operations, and actual savings. This is particularly important
  during the next phase of the transition when delays in consolidation could have
  cascading effects on expected future savings.

 Since we issued our draft report on March 28, 2007, FAA subsequently
 provided us with a copy of its variance report on April 10, 2007. We are
 reviewing the variance report and will report on it later this year.




                                        iv
Because of the risks associated with the next phase of the transition, we are
recommending that FAA provide our office with an update on the status of the
transition through the end of April 2007 (mid-point of the transition). That update
should include at a minimum the implementation status of FS-21, the installation
status of the FTI digital connections, the operational status of the three hub sites,
the number of facilities closed, and the number of sites refurbished. We will
continue reviewing this issue and report on it again later this year.

We also found that better controls are needed to ensure that the operational needs
of users continue to be met. Specifically, we found that staffing levels at
outsourced facilities were lower than what the contractor anticipated, resulting in
some users being routed to adjacent facilities that did not have adequate local
knowledge needed by those users. While this concern should be alleviated when
the planned consolidation and implementation of FS-21 is complete, it could be
compounded if there are delays in fielding the new operating system or
consolidating facilities. We will continue reviewing this issue as well and report
on it again later this year.

FAA also needs better controls for monitoring contractor staffing and plans for
ensuring that flight service specialists are properly trained and certified to meet
user demand. Finally, FAA does not have a system for monitoring customer
service that is independent of Lockheed Martin. Such a system is important to
independently verify the quality and level of services provided during this
transition and after consolidation.


SUMMARY OF RECOMMENDATIONS
Our recommendations focus on the actions FAA should take to improve controls
over its outsourcing of flight services stations during the next phase of the
transition. They include:

   • Providing our office with an update on the status of the next phase of the
     transition through the end of April 2007,
   • Ensuring that the contractor has appropriate and feasible contingency plans
     to maintain the quality and quantity of services during the next phase of the
     transition,
   • Developing and implementing management controls for monitoring
     contractor staffing, and
   • Developing a means for monitoring customer service that is independent of
     the contractor.

A complete list of our recommendations can be found on page 11.

                                         v
SUMMARY OF MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FAA with a draft copy of this report on March 28, 2007, for
comment and requested its response by April 12, 2007. On April 30, 2007, FAA
provided us with its formal response, which is contained in its entirety in the
appendix to this report. FAA concurred with three of our recommendations to:

 • Provide an update on the status of the transition through the end of April 2007;

 • Ensure that the contractor has appropriate and feasible contingency plans in
   place during the transition; and

 • Develop a means for monitoring customer service that is independent of the
   contractor.

FAA agreed to provide us with the status of the transition through the end of April
2007, which we are awaiting. In addition, since we issued our draft report, FAA
has (a) required the contractor to establish contingency plans to maintain services
should there be delays in consolidation during the next phase of the transition and
(b) established a website link (independent of the contractor) for monitoring
customer service. We consider these recommendations resolved.

FAA did not concur with our third recommendation to develop and implement
management controls for monitoring contractor staffing plans to ensure that that
the contractor has a sufficient number of specialists certified in the appropriate
service areas. In its response, FAA states that the purpose of some of the
performance measures included in the contract are to measure whether the
contractor has sufficient staffing. However, most of the performance measures
cited by FAA deal with the response time to telephone calls and radio contacts as
well as how quickly information is entered into computer systems. For example,
performance measure 7, cited by FAA in its response, measures the number of
phone calls answered per day within 20 seconds on connection.

While these measures may provide some information related to facility staffing
levels, they do not measure whether the contractor has sufficient specialists
certified in a particular service area to meet user needs. Each service area has
unique conditions, such as cross-border flights or restricted flight areas, which are
most effectively dealt with by specialists who are certified in those specific areas.

The one performance measure cited by FAA that does deal directly with customer
satisfaction, a customer satisfaction survey, has not been completed. We believe
that FAA needs to implement controls that monitor staffing levels in specific
service areas to ensure that customers receive services that meet their needs.


                                         vi
We believe that FAA needs to reconsider its position; accordingly, we consider
this recommendation unresolved.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we are
requesting that you provide us with the status update of the transition through the
end of April 2007 (recommendation 1). We are also requesting that you
reconsider your position regarding developing and implementing management
controls for monitoring contractor staffing plans to ensure that that the contractor
has a sufficient number of specialists certified in the appropriate service areas
(recommendation 3). We would appreciate receiving your response within
30 calendar days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please feel free to call me
at (202) 366-0500 or Dan Raville, Program Director, at (202) 366-1405.



                                         #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Anthony Williams, ABU-100




                                        vii
                               TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    FAA Has Implemented Effective Controls Over the Initial
    Transition of Flight Services to Contract Operations......................... 1
    Existing Controls May Not Be Sufficient To Ensure That
    Anticipated Savings Are Achieved During the Next and
    Most Critical Phase of the Transition................................................. 2
    Better Controls Are Needed To Ensure That Operational
    Needs of Users Continue To Be Met................................................. 8

RECOMMENDATIONS........................................................................ 11

MANAGEMENT COMMENTS AND OIG RESPONSE........................ 12

EXHIBIT A. SCOPE AND METHODOLOGY ..................................... 16

EXHIBIT B. LOCATIONS VISITED .................................................... 17

EXHIBIT C. PERFORMANCE MEASURES ....................................... 18

EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 19

APPENDIX. AGENCY COMMENTS................................................... 20
                                                                                    1




FINDINGS

FAA Has Implemented Effective Controls Over the Initial Transition of
Flight Services to Contract Operations
We found that FAA has implemented effective controls over the initial transition
of flight service stations to contract operations. These controls include contractual
performance measures that require the contractor to achieve acceptable levels of
operational performance and service as well as internal mechanisms that oversee
the operational and financial aspects of the program. For example, FAA has:

 • Realigned the Agency’s existing Headquarters Flight Services Office to
   oversee the transitional, operational, and financial aspects of the flight services
   contract. This office includes a quality assurance branch that measures
   Lockheed Martin’s performance against contractual performance measures and
   an operations branch that oversees the contractual operations of flight service
   stations.

 • Maintained an operational evaluation group separate from the Flight Services
   Office that conducts reviews of flight service stations to ensure that FAA
   regulations and procedures are followed by contractor personnel. The group
   has also adjusted its monitoring procedures to reflect changes in flight services
   provided by Lockheed Martin.

 • Convened an Executive Board of Performance and Cost Review, which
   monitors the cost and operation of the outsourced flight service stations. The
   Board; which is made up of officials from FAA’s Flight Services Program
   Office, managers from various FAA lines of business, and Lockheed Martin;
   serves as the primary managerial oversight board and reviews contractually
   mandated financial and operational reports for outsourced flight service
   activities.

 • Included 21 performance measures in the contract, which range from
   operational efficiency to customer service, by which Lockheed Martin is
   evaluated against. Lockheed Martin can earn up to $10 million annually in
   bonuses for meeting an acceptable performance level (APL) associated with
   each measure but can also be financially penalized for not meeting an APL.
   Exhibit C lists the 21 performance measures and the associated APLs.

   The Lockheed Martin Project Manager for Flight Service Stations stated that
   the contractor is having difficulties with meeting certain performance
   measures, specifically with processing pilot reports within the contractually


Findings
                                                                                    2


   required time. According to FAA managers, some performance measures may
   be modified in the future. Both FAA and Lockheed Martin are still trying to
   come to a mutual agreement on scoring and collecting data for some
   performance measures.

We also found that the controls implemented by FAA are being utilized, and, in
some cases, FAA has penalized the contractor for poor performance. For
example, during fiscal year (FY) 2006, FAA determined that Lockheed Martin
failed five of the contractual performance measures, either during a quarter or for
the year, resulting in $8.9 million in financial penalties being assessed against the
contractor. The contractor also submitted corrective action plans to resolve other
performance measures that were cited as deficient.

In addition, FAA’s Air Traffic Organization Office of Finance completed an
internal review of the flight services transition in May 2006 and recommended,
among other things, that FAA conduct an assessment of the cost baseline used,
update projected cost savings, and ensure that the quality assurance branch has
sufficient resources to adequately validate contract performance levels. FAA is in
the process of addressing those recommendations.


Existing Controls May Not Be Sufficient To Ensure That Anticipated
Savings Are Achieved During the Next and Most Critical Phase of the
Transition
It is uncertain whether the controls implemented by FAA will be sufficient to
ensure that anticipated savings are achieved as Lockheed Martin begins the next
and most critical phase of the transition. Starting in February, Lockheed Martin
began consolidating the existing 58 sites into 3 hub and 16 refurbished locations
and testing FS-21, the new software operating system for flight service stations.
In addition, FAA will install digital communication lines to support the FS-21
system. All of this is to occur within a 6-month timeframe, which is scheduled to
end in July 2007.

There are significant risks associated with this phase of the transition; any slips in
this schedule could have significant implications to the costs and anticipated
savings of the transition. One critical tool that will assist FAA in monitoring this
transition—a variance report comparing actual first year costs to estimates—was
only recently completed.




Findings
                                                                                 3



FAA and the Contractor Are Facing an Extremely Aggressive Schedule for
Consolidating Locations
FAA and Lockheed Martin plan on completing remaining aspects of the
outsourcing by October 2007. However, the bulk of this work will occur during a
6-month timeframe (February 2007 through July 2007). This includes beginning
operations at the new hub facilities, temporarily closing and refurbishing the
16 continuing sites, permanently closing 42 sites, installing and testing FS-21
equipment and software, and training flight specialists on new flight service areas
and FS-21.

The contractor has already made adjustments to the consolidation schedule.
According to Lockheed Martin officials, while the Leesburg, Virginia, hub opened
in February 2007, the contractor switched the first facility entering the hub from
the Leesburg Flight Service Station to the Anniston, Alabama, Flight Service
Station, which is smaller and less complex and is therefore a lower risk to the
consolidation plan. The Leesburg facility is now scheduled to be consolidated into
the new hub this month.

A delay in the hubs becoming fully operational could prove especially costly since
they must be operational before the facilities that are slated to close can cease
operations. The hubs are also where much of the training on FS-21 and the new
airspace responsibilities will occur. Table 1 shows the current schedule for
consolidating sites during the next phase of the transition.




Findings
                                                                                                                 4




                         Table 1. Planned Consolidation Schedule

                 EASTERN                                     CENTRAL                               WESTERN

      SITE           CEASE            RE-           SITE       CEASE      RE-OPEN           SITE      CEASE            RE-
                      OPS            OPEN                       OPS                                    OPS            OPEN
Anniston             02/19/07
Terre Haute          03/12/07
Altoona              03/26/07
Nashville            04/02/07       05/14/07
Buffalo              04/09/07
Lansing              04/09/07       05/21/07
Macon                04/16/07       05/28/07   Fort Worth*     04/16/07   04/16/07   Prescott*        04/16/07       04/16/07
Green Bay            04/23/07                  Conroe          04/23/07              Reno             04/23/07
Raleigh-Durham       04/30/07       06/11/07   Columbia        04/30/07   06/11/07   Oakland          04/30/07       06/11/07
Leesburg*            05/07/07       05/07/07
Dayton               05/07/07                  Jonesboro       05/07/07              Great Falls      05/07/07
Kankakee             05/14/07       06/25/07   McAlester       05/14/07              Denver           05/14/07       06/25/07
Burlington           05/21/07                  Albuquerque     05/21/07   07/02/07   Riverside        05/21/07
St. Petersburg       05/28/07       07/09/07   St. Louis       05/28/07              San Diego        05/28/07       07/09/07
Anderson             06/04/07                  San Angelo      06/04/07              McMinnville      06/04/07
San Juan             06/11/07       07/23/07   Princeton       06/11/07   07/23/07   Honolulu         06/11/07       07/23/07
Miami                6/18/07        07/30/07   Columbus        06/18/07              Seattle          06/18/07       07/30/07
Louisville           06/25/07                  Wichita         06/25/07              Hawthorne        06/25/07
Williamsport         07/02/07                  Fort Dodge      07/02/07              Cedar City       07/02/07
Bridgeport           07/09/07                  Grand Forks     07/09/07              Rancho Murieta   07/09/07
Elkins               07/16/07                  Deridder        07/16/07              Casper           07/16/07
Jackson              07/23/07                  Huron           07/23/07              Boise            07/23/07
Gainesville          07/23/07
Bangor               07/30/07
Greenwood            07/30/07
Cleveland            07/30/07
Islip              NET 12/14/07
*Co-located AFSS and Hub; Source: Lockheed Martin




          Findings
                                                                                   5



Consolidation Depends Upon the Contractor Completing and Deploying
FS-21
The consolidation is contingent upon having the new flight services operating
system (FS-21) operational. When completed, FS-21 should allow specialists to
access weather information, Notices to Airmen, and other locality-specific
information for any location in the Nation. This capability is limited with the
existing software. Without the ability to access nationwide information from the
hubs, Lockheed Martin will not be able to locate specialists to the new facilities or
re-align geographic responsibilities.

The contractor anticipates completing, testing, and installing FS-21 at all locations
by July 2007. However, the current FS-21 schedule already includes a 10-month
delay from the contractor’s original plan, and, according to FAA, another 6-week
delay is possible. While representatives from Lockheed Martin have indicated that
testing is going well and that implementation is thus far on schedule, the software
testing is a highly complex process. FS-21 must meet FAA’s operational
requirements set forth in FAA Order 7110 and provide seamless connectivity with
the rest of the National Airspace System. Further delays in installing FS-21 could
have a cascading effect on consolidation plans.


FS-21 Depends Upon FAA Installing Digital Connections at Flight Service
Stations
FS-21 requires digital capabilities and, per terms of the contract, must interface
with FAA’s Telecommunications Infrastructure Network.               To meet this
requirement, FAA plans on installing digital connections between the Lockheed
Martin hub facilities and the closing and continuing flight service stations. While
FAA has begun installing the digital connections, one FAA official noted that,
based on the current schedule, there are only about 75 days between when the
digital connections are installed and when operations at closing and continuing
flight service stations are cut over. Given the tight timeframe, any delays or
problems with the installation of these connections could hamper testing and
operation of FS-21, possibly delaying the transition and increasing contractual
costs.

Because of the series of risks associated with the next phase of the transition, we
are recommending that FAA provide our office with an update on the status of the
transition through the end of April 2007, which would be the mid-point of the
transition. That update should include at a minimum the implementation status of
FS-21 and the FTI digital connections, the operational status of the three hub sites,
the number of facilities closed, and the number of sites refurbished. We will
continue reviewing this issue and report on it again later this year.


Findings
                                                                                   6


Delays Could Result in Additional Costs That Could Be Borne by the
Contractor, FAA, or Both Parties
Any delays during the transition could result in additional costs to FAA and a
reduction in its estimated cost savings. However, the Agency’s responsibility for
these costs is unclear. Under terms of the contract, during the transition period,
the Government is responsible for costs associated with non-mandatory,
Government Furnished Property (e.g., certain legacy systems and equipment). In
October 2007, that responsibility shifts to Lockheed Martin with the exception of
Government Furnished Property specifically noted as mandatory in the contract,
which consists primarily of remote radios and telecommunications.

Although FAA has structured the contract to provide Lockheed Martin with a
strong incentive to control costs, there are several factors that could increase the
Agency’s costs. First, FAA and Lockheed Martin have agreed to share cost
savings underruns should the contractor’s billable costs be less than the agreed-
upon level or cost overruns should the contractor’s billable costs exceed the
agreed-upon level. If the billable costs are higher, FAA would be responsible for
some of those costs. Also, the cost implications of any delays to the planned
consolidation are based on several variables, including the timing of the delay, the
party responsible, and the specific items impacted by the delay. If a delay is
caused by FAA’s actions, it could result in adjustments to the contract that could
increase Agency costs and reduce potential savings.

FAA is already facing potential additional reductions to its cost savings.
Lockheed Martin is requesting nearly $177 million in equitable adjustments to the
contract. Most of this adjustment ($147 million) is based on the contractor’s claim
that it was not provided with the correct labor rates when it submitted its bid.
Lockheed Martin is claiming that the actual wage rates for flight service specialists
are significantly higher than what FAA instructed bidders to assume and that FAA
knew, or should have known, that the rates were higher than what the company
proposed.

In conjunction with its equitable adjustment request, Lockheed Martin appealed
the wage rates for flight service specialists to the Department of Labor. The
Department of Labor issued its findings related to the wage dispute in September
2006, in which it proposed a three-tier wage system. FAA has appealed parts of
that finding, and the issue is not yet resolved.

The remaining $30 million is related to FAA’s software and interface
requirements.      Lockheed Martin claims that FAA did not provide the
documentation in sufficient time to develop the software needed for interfacing
with its air traffic system and telecommunications systems. FAA is analyzing



Findings
                                                                                                              7


Lockheed Martin’s claims regarding this issue, but no final determination has been
made.


One Critical Tool—a Variance Report Comparing Actual First Year Costs
to Estimates—Was Only Recently Completed
One critical tool that could assist FAA in monitoring the next phase of the
transition—a variance report comparing first year actual costs to estimates—was
only recently completed. This tool will allow FAA to identify cost overruns,
determine the reasons for the overruns, and allow for adjustment to ensure that
savings are realized. Since we issued our draft report on March 28, 2007, FAA
subsequently provided us with a copy of its variance report on April 10, 2007. We
are reviewing the variance report and will report on it later this year.

The variance report is important because it will provide FAA management with its
first opportunity to evaluate its projections for the Flight Services Program in areas
such as operational costs, technical operations, and actual savings. Now that the
first variance report is complete, FAA plans to update it on a quarterly basis. We
are requesting that FAA provide summarized results of those reports to our office.


FAA Needs To Clarify Its Savings Estimates
FAA originally estimated that it would save $2.2 billion from outsourcing its flight
service activities over the 10-year life of the contract. However, FAA has also
reported that savings over the 10-year life of the contract would be $1.7 billion.
According to the Director of the Flight Services Program Office, the difference
between the two estimates is that FAA’s original cost savings estimate included
approximately $500 million in cost avoidances. Those cost avoidances were
associated with not hiring additional flight specialists during the A-76 competition
in 2003 in anticipation of consolidating facilities, irrespective of whether services
would be operated by FAA or a contractor.

We came to the same conclusion in our 2001 report on flight service stations.1 In
that report, we recommended that FAA consolidate its 61 flight service stations (at
the time of our review) into 25 locations while continuing to operate them. We
also estimated that FAA would likewise save approximately $500 million through
attrition and reductions in overhead and acquisition costs as a result of
consolidation. In its response to our recommendation, FAA went one step further
by proposing the A-76 study.


1
    OIG Report Number AV-2002-064, “Automated Flight Service Stations: Significant Benefits Could Be Realized by
    Consolidating AFSS Sites in Conjunction With Deployment of OASIS,” December 7, 2001. OIG reports can be
    found on our website: www.oig.dot.gov.


Findings
                                                                                    8


We believe that the $1.7 billion cost savings estimate is a more accurate
representation of the actual savings of the contract. The decision not to replace
departing specialists was made prior to the contract with Lockheed Martin, and the
associated savings would have been achieved even if FAA continued to operate
the flight service stations instead of outsourcing the services. Accordingly, we
believe that FAA needs to clarify its savings estimates.


Better Controls Are Needed To Ensure That Operational Needs of
Users Continue To Be Met
Improvements are needed to ensure that the operational needs of users continue to
be met. We found that staffing levels at outsourced facilities were lower than
what the contractor anticipated, resulting in some users being routed to adjacent
facilities that did not have adequate local knowledge needed by those users. This
issue should be corrected when the consolidation is complete and FS-21 is
implemented at all continuing and hub locations. FAA also needs to monitor
contractor staffing and plans for ensuring that flight service specialists are
properly trained and certified to meet user demand. In addition, FAA does not
have a system for monitoring customer service that is independent of the
contractor. Such a system is important to independently verify the quality and
level of services provided during this transition and after consolidation.


Staffing Levels at Existing Flight Service Stations Have Been Lower Than
What the Contractor Anticipated
According to Lockheed Martin figures, overall staffing at flight service stations
dropped from 1,841 employees in October 2005 to 1,603 employees in January
2007, a reduction of nearly 13 percent. While some reduction was foreseen,
officials from Lockheed Martin indicated that the actual attrition rates exceeded
their original estimates and that they were experiencing staffing shortages at both
facilities that are scheduled to be closed as well as facilities that are scheduled to
remain open.

For example, overall facility staffing at the Bridgeport, Connecticut, Flight Service
Station—which is scheduled to close—dropped from 35 employees in October
2005 to 22 in January 2007. At the Miami, Florida, Flight Service Station—which
is scheduled to continue operations—overall staffing dropped from 73 in October
2005 to 61 in January 2007. According to Lockheed Martin officials, specialists
departing from a continuing facility are usually replaced but specialists departing a
facility scheduled to close usually are not.




Findings
                                                                                    9


As an Interim Solution, the Contractor Is “Call Off-Loading” to Adjacent
Facilities, but Specialists Often Do Not Have Local Knowledge Needed by
Users
As an interim solution to short-staffed facilities, the contractor is using “call off-
loading” to satisfy user requests. Call off-loading allows pilot calls to be
transferred to adjoining flight service stations when the original servicing facility
becomes too busy or does not have adequate staffing on duty to handle a user’s
request. This reduces the wait time for services, such as pilot briefings, and
equalizes work among the flight service stations. Call off-loading was originally
utilized by FAA in southern California and the eastern United States in cases
where a facility received an inordinate number of requests at the same time. The
contractor has since expanded call off-loading into a nationwide program.

Several FAA officials indicated that the use of call off-loading has increased
significantly since the contract was put in place. In some cases, we found multiple
facilities that had to adjust their operations in order to cover off-loaded calls from
short-staffed facilities, which created a cascading effect across the country.

For example, one flight service facility supervisor noted that calls at the San
Diego, California, Flight Service Station were off-loaded last summer to the
Albuquerque, New Mexico, Flight Service Station due to staff shortages.
However, this overloaded the Albuquerque facility and required Albuquerque’s
calls to be sent to the Fort Worth, Texas, Flight Service Station and Fort Worth’s
calls to be transferred to facilities in the east.

While we found that call off-loading provides users with flight services in a
timelier manner, some users noted that they do not always receive adequate local
knowledge when they are off-loaded to an adjacent facility. This issue should be
corrected when the consolidation is complete and FS-21 is implemented at all
continuing and hub locations.

However, we are concerned that any delays in the next phase of transition could
cause further degradation in services as facilities scheduled to close remain open
longer than planned and call off-loading is used more and more often as a stop-gap
measure to short staffing. This could be even more pronounced if attrition among
flight specialists continues to increase. In our opinion, Lockheed Martin needs to
develop contingency plans to ensure that services meet user needs should there be
delays in consolidation during the next phase of the transition. Those plans should
be reviewed by FAA for feasibility. Since we issued our draft report, FAA has
required the contractor to establish contingency plans to maintain the quality and
quantity of services to meet user demands. We will continue reviewing this issue
and report on it again later this year.



Findings
                                                                                     10


FAA Needs To Develop an Oversight Plan That Monitors the Contractor’s
Staffing and Plans for Ensuring That Specialists Are Properly Trained and
Certified in Areas That Meet User Demand
Lockheed Martin has developed a strategy for monitoring staffing at its facilities,
which includes utilizing a workforce management system that will track flight
specialist staffing and monitor workloads at individual flight service facilities. By
tracking staffing and workload figures, the system will allow the contractor to
identify staff shortages at individual facilities. The system will also let Lockheed
Martin identify facilities with higher levels of users or seasonal shifts in traffic,
allowing it to adjust staffing and training procedures. However, the system is still
in developmental stages.

While FAA is aware of Lockheed Martin’s staffing and training procedures, it
does not have a formal system in place to monitor the contractor’s efforts in this
area. Since the workforce management system will represent another new system
implemented by Lockheed Martin and will still be in developmental stages during
the next phase of the transition, we believe that FAA needs to improve its
oversight of the contractor staffing plans to ensure that users of flight service
stations continue to receive the local knowledge they are accustomed to. This
includes developing procedures for monitoring the contractor’s actual staffing,
staffing plan, and training efforts to ensure that specialists are trained and certified
in the areas that will meet users’ demands.


FAA Needs To Develop an Independent Customer Service Monitoring
Process To Verify the Quality and Level of Services Provided by the
Contractor
FAA relies on the following two external sources for customer feedback and
complaints regarding flight service stations.

Contractor’s Flight Service Website: Lockheed Martin has a portal on its
website that allows users to make comments and complaints regarding flight
services. Complaints are then forwarded by Lockheed Martin to FAA for review.
FAA’s flight services website also includes a link to this portal, but the process
relies on Lockheed Martin to provide customer comments on its own performance
to FAA for evaluation. FAA does not have an independent means for receiving
feedback regarding Lockheed Martin’s performance.

User Group Discussions: Although FAA holds discussions with user groups
regarding flight service operations and receives complaints collected by the
Aircraft Owners and Pilots Association (AOPA), AOPA officials indicated that
they expect FAA to have its own customer service function that will respond to



Findings
                                                                                11


user issues and complaints. However, the Agency does not have its own customer
service function that is independent of the contractor.

In our opinion, FAA needs to develop a customer service mechanism independent
from Lockheed Martin for users to address concerns regarding contracted flight
services. This is necessary so that FAA can unilaterally determine if user needs
are being adequately met under contract operations. Since we issued our draft
report, FAA established a website link (independent of the contractor) for
monitoring customer service.


RECOMMENDATIONS
We recommend that FAA:

 1. Provide our office with an update on the status of the next phase of the
    transition through the end of April 2007. That update should include at a
    minimum the implementation status of FS-21 and the FTI digital connections,
    the operational status of the three hub sites, the number of facilities closed,
    and the number of sites refurbished.

 2. Ensure that Lockheed Martin has appropriate and feasible contingency plans
    to maintain the quality and quantity of services to meet user demands should
    there be delays in consolidation during the next phase of the transition.

 3. Develop and implement management controls for monitoring contractor
    staffing plans to ensure that there are a sufficient number of flight service
    specialists certified in the appropriate service areas to adequately meet user
    demand.

 4. Develop a means for monitoring customer service that is independent of the
    contractor in order to autonomously verify the quality and level of services
    provided to users under contract operations.




Recommendations
                                                                                  12




MANAGEMENT COMMENTS AND OIG RESPONSE
We provided FAA with a draft copy of this report on March 28, 2007, for
comment and requested its response by April 12, 2007. On April 30, 2007, FAA
provided us with its formal response, which is contained in its entirety in the
appendix to this report.

FAA concurred with three of our recommendations—to provide an update on the
status of the transition through the end of April 2007 (recommendation 1), to
ensure that the contractor has appropriate and feasible contingency plans in place
during the transition (recommendation 2), and to develop a means for monitoring
customer service that is independent of the contractor (recommendation 4).

We consider recommendation 1 resolved but open pending receipt of FAA’s
report on the status of the transition. We are closing recommendations 2 and 4
based on the actions taken by FAA. Specifically, since we issued our draft report,
FAA has (a) required the contractor to establish contingency plans to maintain the
quality and quantity of services to meet user demands should there be delays in
consolidation during the next phase of the transition (recommendation 2) and (b)
established a website link (independent of the contractor) for monitoring customer
service (recommendation 4).

FAA did not concur with recommendation 3, which was to develop and implement
management controls for monitoring contractor staffing plans to ensure that that
the contractor has a sufficient number of specialists certified in the appropriate
service areas. In its response, FAA states that the purpose of some of the
performance measures included in the contract are to measure whether the
contractor has sufficient staffing. However, most of the performance measures
cited by FAA deal with the response time to telephone calls and radio contacts, as
well as how quickly information is entered into computer systems. For example,
performance measure 7, cited by FAA in its response, measures the number of
phone calls answered per day within 20 seconds on connection.

While these measures may provide some information related to facility staffing
levels, they do not measure whether the contractor has sufficient specialists
certified in a particular service area to meet user needs. Each service area has
unique conditions, such as cross-border flights or restricted flight areas, which are
most effectively dealt with by specialists who are certified in those specific areas.
The one performance measure cited by FAA that does deal directly with customer
satisfaction, a customer satisfaction survey, has not been completed.




Management Comments and OIG Response
                                                                                  13


We believe that FAA needs to implement controls such as requiring the contractor
to submit monthly staffing reports that monitor staffing levels in specific service
areas to ensure that customers receive services that meet their needs. Accordingly,
we believe that FAA needs to reconsider its position and we consider this
recommendation open and unresolved.

In its response, FAA made additional, specific comments to several points in our
report. FAA’s comments and our responses are as follows:

Page 1, third paragraph, first sentence:

OIG Draft Report: “On February 1, 2005, FAA awarded a 5-year, fixed-price
incentive contract (with 5 additional option years) to Lockheed Martin….”

FAA Comment: “The FAA awarded a 5-year contract with a 3-year option period
followed by a 2-year option period.”

OIG Response: As we state in our report, the flight services contract is a 5-year
contract with 5 additional option years—a 3-year option period and a 2-year
option period. Accordingly, we made no changes to our final report.

Page 2, second paragraph, first bullet:

OIG Draft Report: “Consolidating the 58 flight service stations currently in
operations into 3 new hub and 17 refurbished stand-alone facilities….”

FAA Comment: “There will be 3 new hub facilities and 16 refurbished stand-
alone facilities.”

OIG Response: During our review, the status of the Islip facility was uncertain.
Since we issued our draft report, Lockheed Martin has decided that it will
consolidate the Islip facility into the Leesburg Hub rather than refurbish it. As a
result, there will now be 3 new hub facilities and 16 refurbished stand-alone
facilities once the consolidation is complete. We revised our final report to reflect
this modification.

Page 11, second paragraph, third sentence:

OIG Draft Report: “If the [contractor] billable costs are higher, FAA would be
responsible for some of those costs.”

FAA Comment: “While the FAA also shares in any cost overruns, we feel the
risk here is minimal because of the contract structure that limits this liability to
15 percent above target cost. Any overruns that occur are most probable in the
first three years of the contract because of development and implementation costs.


Management Comments and OIG Response
                                                                                   14


In these first three years, our liability cap is the 15 percent profit we already have
budgeted in the contract; so overruns occurring in this timeframe will be borne
solely by the contractor.”

OIG Response: We continue to believe that if the contractor billable costs are
higher, FAA would be responsible for some of these costs. FAA’s comment that
risk is limited does not change the fact that FAA would be responsible for a
portion of the additional costs billed by the contractor. Accordingly, we made no
changes to our final report.

Page 11, third paragraph, first sentence:

OIG Draft Report: “One critical tool that could assist FAA in monitoring the
next phase of the transition—a variance report comparing the first year actual
costs to estimates—has not been completed.”

FAA Comment: “The FAA believes the variance report can be a valuable tool to
assist us in monitoring the costs and savings for the overall program. The first
period variance report has been completed and has been provided to the OIG
under separate cover. The fiscal year 2007 year-to-date first quarter cost variance
report is near finalization. This report will continue to be updated quarterly.”

OIG Response: The Flight Services Program Office provided the variance report
to our office on April 10, 2007; this was after we sent our draft report to FAA
(March 28, 2007). We will address the variance report in the follow-up audit to
this report. We revised our final report to reflect the change in the status of the
variance report.

Page 12, second paragraph, third through fifth sentence:

OIG Draft Report: “…the decision not to replace departing specialists was made
prior to the contract with Lockheed Martin, and the savings would have been
achieved even if FAA continued to operate the flight service stations instead of
outsourcing the services. In some references made by FAA, this cost avoidance
has already been removed from its savings estimate. We found that on several
occasions, FAA is reporting a lower expected savings amount of $1.7 billion
instead of the original projection of $2.2 billion.”

FAA Comment: “Expected savings and cost avoidances resulting from the AFSS
program are $2.2 billion in capital and labor over a 13-year period. The OIG
report in late 2001 and the A-76 feasibility study conducted in 2002 led to the
decision to conduct an A-76 competition. For the period of 1991 to 2003 leading
up to the announcement of the A-76 competition, AFSS staffing declined an
average of 3.5 percent per year. After the announcement of the A-76 in 2003,


Management Comments and OIG Response
                                                                                   15


staffing declines accelerated significantly to over 9 percent a year for the next two
and one-half years; in fact, the percentage drop from 2004 to 2005 was over
19 percent. These declines would not have occurred without the actions taken
because of the A-76 activity. The management strategy to lower AFSS staffing
and to not replace equipment was made as a result of the decision to perform an A-
76 competition and the $500 million should be included as part of the cost
avoidances attributable to the A-76 activity.”

OIG Response: During our fieldwork, we noted that FAA had reported an
expected savings amount of $1.7 billion rather than $2.2 billion on several
occasions. We believe that, when discussing the outsourcing, FAA needs to do a
better job of differentiating between the savings resulting from the actual
outsourcing and the total savings associated with the A-76 competition. We
reiterate that the outsourcing of flight services directly resulted in $1.7 billion in
savings. The additional $500 million in planned savings from the elimination of
capital programs and the staffing reduction occurred prior to the outsourcing
decision and could have been achieved even if FAA continued to operate the flight
service stations instead of outsourcing the services. Accordingly, we did not
revise our final report’s conclusion on this issue.




Management Comments and OIG Response
                                                                                 16




EXHIBIT A. SCOPE AND METHODOLOGY
This performance audit was conducted in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts. We conducted this review
between May 2006 and March 2007. The review included site visits to six
existing flight service stations, three Lockheed Martin hub flight service stations,
two Lockheed Martin division offices, FAA Headquarters, and two FAA Regional
offices.

To determine whether FAA has sufficient controls and plans in place to transition
flight service stations to contract operations, we interviewed officials from FAA’s
Office of Flight Services, FAA’s Safety Evaluations Office, and Lockheed Martin.
We also reviewed the FAA and Lockheed Martin flight service contract, including
the 21 performance measures and APLs associated with each measure, and the
FAA and Lockheed Martin schedules, timetables, and transition plans for flight
service transition and consolidation. We visited six operating flight service
stations and the three Lockheed Martin hub facilities and observed FAA quality
assurance and safety evaluations at two flight service stations.

To determine whether FAA has sufficient controls and plans in place to achieve
anticipated savings, we interviewed officials from FAA’s Office of Flight
Services, Cost Accounting Standards Division (ABA), Technical Operations, the
Air Traffic Organization’s Finance Branch, and Lockheed Martin. We reviewed
FAA’s cost savings estimate and supporting documentation, Agency cost
accounting data for FY 2006, contractor quarterly cost and budget reports required
by the flight service contract, and equitable adjustment requests from Lockheed
Martin.

To determine whether FAA has sufficient controls and plans in place to ensure
that the operational needs of users continue to be met, we interviewed officials
from FAA’s Office of Flight Services and Lockheed Martin; held meetings with
representatives from labor, aviation-interest, and other user groups; and reviewed
customer service surveys conducted by AOPA.




Exhibit A. Scope and Methodology
                                                                                  17




EXHIBIT B. LOCATIONS VISITED

Existing Flight Service Station Facilities:

 • Leesburg, Virginia, Automated Flight Service Station
 • Bridgeport, Connecticut, Automated Flight Service Station
 • Fort Worth, Texas, Automated Flight Service Station
 • Prescott, Arizona, Automated Flight Service Station
 • Cleveland, Ohio, Automated Flight Service Station
 • San Diego, California, Automated Flight Service Station

Lockheed Martin Hubs and Offices:

 • Lockheed Martin Division Offices (Washington, District of Columbia, and
   Rockville, Maryland)
 • Lockheed Martin’s Leesburg, Virginia (Ashburn), Hub Automated Flight
   Service Station
 • Lockheed Martin’s Fort Worth, Texas, Hub Automated Flight Service Station
 • Lockheed Martin’s Prescott, Arizona, Automated Flight Service Station

FAA Locations:

 • FAA Headquarters/Program Office
 • ATO Flight Services Western Regional Headquarters
 • ATO En-Route Central Service Area

We also met with the following industry representatives to obtain their opinions on
the outsourcing and other issues related to the operation of flight service stations:

 • Aircraft Owners and Pilots Association
 • General Aviation Manufacturers Association
 • National Association of Air Traffic Specialists
 • National Air Traffic Controllers Association




Exhibit B. Locations Visited
                                                                                                                 18




          EXHIBIT C. PERFORMANCE MEASURES

             Table 2. Contractual Performance Measures With Acceptable
                                 Performance Levels
ID       Performance Measures                          Acceptable          Acceptable             Acceptable      Payout
                                                      Performance         Performance            Performance Frequency
                                                      Level (APL)       Level (APL) End-         Level (APL)
                                                       Transition             State             End-State Plus
                                                                                                     2 years
1    AFSS Customer Satisfaction Rating                84%               90%                     95%             Annually
2    Conformity Index Score                           85%               85%                     90%             Annually
2a   Customized Info Services Conformity Index        80%               85%                     90%             Quarterly
3    Employee Evaluation Index Score                  90%               92%                     95%             Annually
4    Number of Operational Errors                     Not to exceed 2   Not to exceed 2 per     Not to exceed 2 Annually
                                                      per year          year                    per year
5    Number of Operational Deviations                 Not to exceed 6   Not to exceed 5 per     Not to exceed 5 Annually
                                                      per year          year                    per year
6    Number of Validated Customer Complaints          Less than or      Less than or equal to   Less than or    Quarterly
                                                      equal to 1%       .01%                    equal to .0095%
7    Percentage of Calls per Day Answered             80%               92%                     98%             Quarterly
     Within 20 Seconds
8    Percentage of Dropped Calls per Hour Over        Less than or      Less than or equal to   Less than or      Quarterly
     20 Seconds Wait                                  equal to 7%       5%                      equal to 2%
9    Percentage of Radio Contacts Acknowledged        80%               90%                     95%               Quarterly
     Within 5 Seconds
10   Percentage of Radio Contacts Service             85%               90%                     90%               Quarterly
     Initiated Within 15 Seconds
11   Percentage of Error-Free Flight Plans Filed      95%               97%                     99%               Quarterly
12   Percentage of Domestic Flight Plans Filed        95%               97%                     98%               Quarterly
     Within 3 Minutes
13   Percentage of International Flight Plans Filed   90%               95%                     98%               Quarterly
     Within 5 Minutes
14   Percentage of Urgent Pilot Reports (PIREPs)      90%               94%                     98%               Quarterly
     Processed Within 30 Seconds of Receipt
15   Percentage of PIREPSs Processed Within 30        90%               94%                     98%               Quarterly
     Seconds of Receipt
16   Emergency Services Evaluation Index Score        95%               98%                     99%               Annually
17   Percentage of Overdue Aircraft Located Prior     94%               96%                     98%               Quarterly
     to Issuance of QALQ
18   Percentage of Domestic Notice to Airmen          90%               92%                     95%               Quarterly
     (NOTAMS) Accepted
19   Availability of Services                         Per NAS-SR-       Per NAS-SR-100          Per NAS-SR-100    Annually
                                                      100
20   Percentage of Calls per Day Blocked              Less than or      Less than or equal to   Less than or      Quarterly
                                                      equal to 5%       3%                      equal to 1%




          Exhibit C. Performance Measures
                                                        19




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                            Title

  Dan Raville                     Program Director

  Susan Bader                     Project Manager

  Robert Romich                   Project Manager

  Frank Danielski                 Senior Auditor

  Christopher Frank               Senior Auditor

  Ebonique Poteat                 Analyst

  Andrea Nossaman                 Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                 20




APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          April 30, 2007

To:            Robin Hunt, Acting Assistant Inspector General for Aviation and Special Program
               Audits

From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:   Anthony Williams, x79000

Subject:       “Draft Report: Controls Over the Federal Aviation Administration’s
               Conversion of Flight Service Stations to Contract Operations “


As requested in your memorandum dated March 28, I have attached FAA’s written
comments to your subject draft report. Included in this attachment is FAA’s position to the
four recommendations contained in the report.

Thank you for allowing the agency the opportunity to make comments and to provide the
specific action taken or planned for each recommendation. If you have any questions, please
contact Anthony Williams, Budget Policy Division, at (202 267-9000).

Attachment




Appendix. Agency Comments
                                                                                             21


                                                                                              2

               Federal Aviation Administration's (FAA) Response to the
                 Office of Inspector General's (OIG) Draft Report on
          Controls Over the Federal Aviation Administration's Conversions of
                    Flight Service Stations to Contract Operations

Specific Comments. Our specific comments follow:

Page 1, third paragraph, first sentence:

OIG Draft Report: “On February 1,2005, FAA awarded a 5-year, fixed-price incentive
contract (with 5 additional option years) to Lockheed Martin….”

FAA Comment: The FAA awarded a 5-year contract with a 3-year option period followed
by a 2-year option period.

Page 2, second paragraph, first bullet:

OIG Draft Report: “Consolidating the 58 flight service stations currently in operation into 3
new hub facilities and 17 refurbished stand-alone facilities;”

FAA Comment: There will be 3 new hub facilities and 16 refurbished stand-alone facilities.

Page 11, second paragraph, third sentence:

OIG Draft Report: “If the [contractor] billable costs are higher, FAA would be responsible
for some of those costs.”

FAA Comment: While the FAA also shares in any cost overruns, we feel the risk here is
minimal because of the contract structure that limits this liability to 15 percent above target
cost. Any overruns that occur are most probable in the first three years of the contract
because of development and implementation costs. In these first three years, our liability cap
is the 15 percent profit we already have budgeted in the contract; so overruns occurring in
this
timeframe will be borne solely by the contractor.

Page 11, third paragraph, first sentence:

OIG Draft Report: “One critical tool that could assist FAA in monitoring the next phase of
the transition—a variance report comparing first year actual costs to estimates—has not been
completed.”

FAA Comment: The FAA believes the variance report can be a valuable tool to assist us in
monitoring the costs and savings for the overall program. The first period variance report has
been completed and has been provided to the OIG under separate cover. The fiscal year 2007



Appendix. Agency Comments
                                                                                                22



                                                                                                 3
year-to-date first quarter cost variance report is near finalization. This report will continue to
be updated quarterly.

Page 12, second paragraph, third through fifth sentences:

OIG Draft Report: “…the decision not to replace departing specialists was made prior to the
contract with Lockheed Martin, and the savings would have been achieved even if FAA
continued to operate the fight service stations instead of outsourcing the services. In some
references made by FAA, this cost avoidance has already been removed from its savings
estimate. We found that on several occasions, FAA is reporting a lower expected savings
amount of $1.7 billion instead of the original projection of $2.2 billion.”

FAA Comment: Expected savings and cost avoidances resulting from the AFSS program are
$2.2 billion in capital and labor over a 13-year period. The OIG report in late 2001 and the
A-76 feasibility study conducted in 2002 led to the decision to conduct an A-76 competition.
For the period of 1991 to 2003 leading up to the announcement of the A-76 competition,
AFSS staffing declined an average of 3.5 percent a year. After the announcement of the A-76
in 2003, staffing declines accelerated significantly to over 9 percent a year for the next two
and one-half years; in fact, the percentage drop from 2004 to 2005 was over 19 percent.
These declines would not have occurred without the actions taken because of the A-76
activity. The management strategy to lower AFSS staffing and to not replace equipment was
made as a result of the decision to perform an A-76 competition and the $500 million should
be included as part of the cost avoidances attributable to the A-76 activity.

OIG Recommendations.

OIG Recommendation: Provide our office with an update on the status of the next phase of
the transition through the end of April 2007. That update should include at a minimum the
implementation status of FS-21 and the FTI digital connections, the operational status of the
three hub sites, the number of facilities closed, and the number of sites refurbished.

FAA Response: The FAA agrees the schedule to implement FS2 1, install the needed FTI
circuits, and consolidate legacy AFSSs is aggressive. The FTI office, to date, has a 92
percent success rate in installing circuits on time and has installed all circuits needed to
achieve initial operating capability at 33 of the 57 AFSSs. While there was a ten-month
schedule slip immediately after contract award, Lockheed Martin is meeting the revised
implementation schedule and has opened the Washington hub and consolidated six AFSSs
into the hub. The two remaining hubs in Fort Worth and Prescott will open over the next two
weeks. The FAA will provide the OIG with an update on the transition status through the end
of April 2007 as requested.

OIG Recommendation: Ensure that Lockheed Martin has appropriate and feasible
contingency plans to maintain the quality and quantity of services to meet user demands
should there be delays in consolidation during the next phase of the transition.



Appendix. Agency Comments
                                                                                            23



                                                                                                 4
FAA Response: The Flight Services Program Office (FSPO) has required the contractor
have in place contingency plans for each facility to ensure the expected service is provided.
A contingency plan is used for each consolidating site to allow for fallback in the event the
transition or any piece of the transition to the hub is unsuccessful. These plans are
coordinated on a site-by-site basis between the contractor and the FAA before each
consolidation. To date, no fallback has been necessary for any consolidated site.

OIG Recommendation: Develop and implement management controls for monitoring
contractor staffing plans to ensure that there are a sufficient number of flight service
specialists certified in the appropriate service areas to adequately meet user demand.

FAA Response: The OIG recommends management controls for monitoring contractor
staffing plans. The purpose, in part, for several of the performance measures and associated
acceptable performance levels (APL) is to measure whether the contractor has sufficient
staffing. The contractor must submit corrective action plans (CAP) when one or more of
these APLs are not achieved. The FAA monitors the actions taken as a result of the CAP and
may assess monetary credits if the APLs are not met. These APLs are 1, 6- 10, 12-14, and
generally deal with maximum times allowed to perform a service.

OIG Recommendation: Develop a means for monitoring customer service that is
independent of the contractor in order to autonomously verify the quality and level of
services provided to users under contract operations.

FAA Response: The FAA agrees with the recommendation for having a method of
monitoring customer services independent of the contractor. The FAA has placed a link on
the FAA homepage directing customers to provide comments on service to
9-AWA-ATO-SYSOPS-FS@faa.gov. This address is also posted prominently on the FSPO
Web site. Complaints are validated, researched, and responded to in a timely manner,
normally within two weeks. The FSPO also has mechanisms in place to independently
receive and act on feedback from internal units that deal with the contractor, e.g., towers,
centers, etc. The Safety Services organization within the FAA also evaluates the facilities on
a regular basis. This action is done independently from the FSPO.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
  Controls Over the Federal Aviation Administration’s Conversion of Flight Service
                         Stations to Contract Operations

                          Section 508 Compliant Presentation

Table 1. Planned Consolidation Schedule

Schedule for Eastern United States

 • The Anniston, Alabama, site is scheduled to cease operations on February 19, 2007.
 • The Terre Haute, Indiana, site is scheduled to cease operations on March 12, 2007.
 • The Altoona, Pennsylvania, site is scheduled to cease operations on March 26, 2007.
 • The Nashville, Tennessee, site is scheduled to cease operations on April 2, 2007. The
   Nashville site is scheduled to re-open on May 14, 2007.
 • The Buffalo, New York, site is scheduled to cease operations on April 9, 2007.
 • The Lansing, Michigan, site is scheduled to cease operations on April 9, 2007. The
   Lansing site is scheduled to re-open on May 21, 2007.
 • The Macon, Georgia, site is scheduled to cease operations on April 16, 2007. The Macon
   site is scheduled to re-open on May 28, 2007.
 • The Green Bay, Wisconsin, site is scheduled to cease operations on April 23, 2007.
 • The Raleigh-Durham, North Carolina, site is scheduled to cease operations on April 30,
   2007. The Raleigh-Durham site is scheduled to re-open on June 11, 2007.
 • The Leesburg, Virginia, site is scheduled to cease operations on May 7, 2007. The
   Leesburg site is scheduled to re-open on May 7, 2007. (This is a co-located AFSS and
   hub.)
 • The Dayton, Ohio, site is scheduled to cease operations on May 7, 2007.
 • The Kankakee, Illinios, site is scheduled to cease operations on May 14, 2007. The
   Kankakee site is scheduled to re-open on June 25, 2007.
 • The Burlington, Vermont, site is scheduled to cease operations on May 21, 2007.
 • The St. Petersburg, Florida, site is scheduled to cease operations on May 28, 2007. The
   St. Petersburg site is scheduled to re-open on July 9, 2007.
 • The Anderson, South Carolina, site is scheduled to cease operations on June 4, 2007.
 • The San Juan, Puerto Rico, site is scheduled to cease operations on June 11, 2007. The
   San Juan site is scheduled to re-open on July 23, 2007.
 • The Miami, Florida, site is scheduled to cease operations on June 18, 2007. The Miami
   site is scheduled to re-open on July 30, 2007.
 • The Louisville, Kentucky, site is scheduled to cease operations on June 25, 2007.
 • The Williamsport, Pennsylvania, site is scheduled to cease operations on July 2, 2007.
 • The Bridgeport, Connecticut, site is scheduled to cease operations on July 9, 2007.
 • The Elkins, West Virginia, site is scheduled to cease operations on July 16, 2007.
 • The Jackson, Mississippi, site is scheduled to cease operations on July 23, 2007.
 • The Gainesville, Florida, site is scheduled to cease operations on July 23, 2007.
 • The Bangor, Maine, site is scheduled to cease operations on July 30, 2007.
 • The Greenwood, Maine, site is scheduled to cease operations on July 30, 2007.
 • The Cleveland, Ohio, site is scheduled to cease operations on July 30, 2007.
 • The Islip, New York, site is scheduled to cease operations on NET December 14, 2007.

Schedule for Central United States

 • The Fort Worth, Texas, site is scheduled to cease operations on April 16, 2007. The Fort
   Worth site is scheduled to re-open on April 14, 2007. (This is a co-located AFSS and
   hub.)
 • The Conroe, Texas, site is scheduled to cease operations on April 23, 2007.
 • The Columbia, Missouri, site is scheduled to cease operations on April 30, 2007. The
   Columbia site is scheduled to re-open on June 11, 2007.
 • The Jonesboro, Arkansas, site is scheduled to cease operations on May 7, 2007.
 • The McAlester, Oklahoma, site is scheduled to cease operations on May 14, 2007.
 • The Albuquerque, New Mexico, site is scheduled to cease operations on May 21, 2007.
   The Albuquerque site is scheduled to re-open on July 2, 2007.
 • The St. Louis, Missouri, site is scheduled to cease operations on May 28, 2007.
 • The San Angelo, Texas, site is scheduled to cease operations on June 4, 2007.
 • The Princeton, New Jersey, site is scheduled to cease operations on June 11, 2007. The
   Princeton site is scheduled to re-open on July 23, 2007.
 • The Columbus, Ohio, site is scheduled to cease operations on June 18, 2007.
 • The Wichita, Kansas, site is scheduled to cease operations on June 25, 2007.
 • The Fort Dodge, Iowa, site is scheduled to cease operations on July 2, 2007.
 • The Grand Forks, North Dakota, site is scheduled to cease operations on July 9, 2007.
 • The Deridder, Louisiana, site is scheduled to cease operations on July 16, 2007.
 • The Huron, South Dakota, site is scheduled to cease operations on July 23, 2007.

Schedule for Western United States

 • The Prescott, Arizona, site is scheduled to cease operations on April 16, 2007. The
   Prescott site is scheduled to re-open on April 16, 2007. (This is a co-located AFSS and
   hub.)
 • The Reno, Nevada, site is scheduled to cease operations on April 23, 2007.
 • The Oakland, California, site is scheduled to cease operations on April 30, 2007. The
   Oakland site is scheduled to re-open on June 11, 2007.
 • The Great Falls, Montana, site is scheduled to cease operations on May 7, 2007.
 • The Denver, Colorado, site is scheduled to cease operations on May 14, 2007. The
   Denver site is scheduled to re-open on June 25, 2007.
 • The Riverside, California, site is scheduled to cease operations on May 21, 2007.
 • The San Diego, California, site is scheduled to cease operations on May 28, 2007. The
   San Diego site is scheduled to re-open on July 9, 2007.
 • The McMinnville, Oregon, site is scheduled to cease operations on June 4, 2007.
 • The Honolulu, Hawaii, site is scheduled to cease operations on June 11, 2007. The
   Honolulu site is scheduled to re-open on July 23, 2007.
 • The Seattle, Washington, site is scheduled to cease operations on June 18, 2007. The
   Seattle site is scheduled to re-open on July 30, 2007.
 • The Hawthorne, California, site is scheduled to cease operations on June 25, 2007.
         • The Cedar City, Utah, site is scheduled to cease operations on July 2, 2007.
         • The Rancho Murieta, California, site is scheduled to cease operations on July 9, 2007.
         • The Casper, Wyoming, site is scheduled to cease operations on July 16, 2007.
         • The Boise, Idaho, site is scheduled to cease operations on July 23, 2007.

         Source: Lockheed Martin

       Table 2. Contractual Performance Measures With Acceptable Performance Levels (APL)

Performance   AFSS Customer Satisfaction Rating       APL during         APL at end-state:     APL at end-state   Payout
Measure 1                                             transition: 84%    90%                   plus 2 years:      Frequency:
                                                                                               95%                Annually
Performance   Conformity Index Score                  APL during         APL at end-state:     APL at end-state   Payout
Measure 2                                             transition: 85%    85%                   plus 2 years:      Frequency:
                                                                                               90%                Annually
Performance   Customized Info Services Conformity     APL during         APL at end-state:     APL at end-state   Payout
Measure 2a    Index                                   transition: 80%    85%                   plus 2 years:      Frequency:
                                                                                               90%                Quarterly
Performance   Employee Evaluation Index Score         APL during         APL at end-state:     APL at end-state   Payout
Measure 3                                             transition: 90%    92%                   plus 2 years:      Frequency:
                                                                                               95%                Annually
Performance   Number of Operational Errors            APL during         APL at end-state:     APL at end-state   Payout
Measure 4                                             transition: Not    Not to exceed 2 per   plus 2 years:      Frequency:
                                                      to exceed 2 per    year                  Not to exceed 2    Annually
                                                      year                                     per year
Performance   Number of Operational Deviations        APL during         APL at end-state:     APL at end-state   Payout
Measure 5                                             transition: Not    Not to exceed 5 per   plus 2 years:      Frequency:
                                                      to exceed 6 per    year                  Not to exceed 5    Annually
                                                      year                                     per year
Performance   Number of Validated Customer            APL during         APL at end-state:     APL at end-state   Payout
Measure 6     Complaints                              transition: Less   Less than or equal    plus 2 years:      Frequency:
                                                      than or equal to   to .01%               Less than or       Quarterly
                                                      1%                                       equal to .0095%
Performance   Percentage of Calls per Day Answered    APL during         APL at end-state:     APL at end-state   Payout
Measure 7     Within 20 Seconds                       transition: 80%    92%                   plus 2 years:      Frequency:
                                                                                               98%                Quarterly
Performance   Percentage of Dropped Calls per Hour    APL during         APL at end-state:     APL at end-state   Payout
Measure 8     Over 20 Seconds Wait                    transition: Less   Less than or equal    plus 2 years:      Frequency:
                                                      than or equal to   to 5%                 Less than or       Quarterly
                                                      7%                                       equal to 2%
Performance   Percentage of Radio Contacts            APL during         APL at end-state:     APL at end-state   Payout
Measure 9     Acknowledged Within 5 Seconds           transition: 80%    90%                   plus 2 years:      Frequency:
                                                                                               95%                Quarterly
Performance   Percentage of Radio Contacts Service    APL during         APL at end-state:     APL at end-state   Payout
Measure 10    Initiated Within 15 Seconds             transition: 85%    90%                   plus 2 years:      Frequency:
                                                                                               90%                Quarterly
Performance   Percentage of Error-Free Flight Plans   APL during         APL at end-state:     APL at end-state   Payout
Measure 11    Filed                                   transition: 95%    97%                   plus 2 years:      Frequency:
                                                                                               99%                Quarterly
Performance   Percentage of Domestic Flight Plans     APL during         APL at end-state:     APL at end-state   Payout
Measure 12    Filed Within 3 Minutes                  transition: 95%    97%                   plus 2 years:      Frequency:
                                                                                               98%                Quarterly
Performance   Percentage of International Flight    APL during         APL at end-state:    APL at end-state    Payout
Measure 13    Plans Filed Within 5 Minutes          transition: 90%    95%                  plus 2 years:       Frequency:
                                                                                            98%                 Quarterly
Performance   Percentage of Urgent Pilot Reports    APL during         APL at end-state:    APL at end-state    Payout
Measure 14    (PIREPs) Processed Within 30          transition: 90%    94%                  plus 2 years:       Frequency:
              Seconds of Receipt                                                            98%                 Quarterly
Performance   Percentage of PIREPSs Processed       APL during         APL at end-state:    APL at end-state    Payout
Measure 15    Within 30 Seconds of Receipt          transition: 90%    94%                  plus 2 years:       Frequency:
                                                                                            98%                 Quarterly
Performance   Emergency Services Evaluation Index   APL during         APL at end-state:    APL at end-state    Payout
Measure 16    Score                                 transition: 95%    98%                  plus 2 years:       Frequency:
                                                                                            99%                 Annually
Performance   Percentage of Overdue Aircraft        APL during         APL at end-state:    APL at end-state    Payout
Measure 17    Located Prior to Issuance of QALQ     transition: 94%    96%                  plus 2 years:       Frequency:
                                                                                            98%                 Quarterly
Performance   Percentage of Domestic Notice to      APL during         APL at end-state:    APL at end-state    Payout
Measure 18    Airmen (NOTAMS) Accepted              transition: 90%    92%                  plus 2 years:       Frequency:
                                                                                            95%                 Quarterly
Performance   Availability of Services              APL during         APL at end-state:    APL at end-state    Payout
Measure 19                                          transition: Per    Per NAS-SR-100       plus 2 years: Per   Frequency:
                                                    NAS-SR-100                              NAS-SR-100          Annually
Performance   Percentage of Calls per Day Blocked   APL during         APL at end-state:    APL at end-state    Payout
Measure 20                                          transition: Less   Less than or equal   plus 2 years:       Frequency:
                                                    than or equal to   to 3%                Less than or        Quarterly
                                                    5%                                      equal to 1%
